Report on Audit of the African Development Foundation’s
Financial Statements for Fiscal Years
2004 and 2003.

Audit Report No. 0-ADF-05-003-C

November 15, 2004




                Washington, D.C.

November 15, 2004


MEMORANDUM

FOR:           African Development Foundation President, Nathaniel Fields

FROM:          AIG/A, Bruce N. Crandlemire

SUBJECT:       Audit of the African Development Foundation’s Financial Statements for Fiscal Years
               2004 and 2003 (Report No. 0-ADF-05-003-C)

 Enclosed is the final report on the subject audit. The Office of Inspector General (OIG) contracted with
 the independent certified public accounting firm of Leonard G. Birnbaum and Company, LLP (LGB) to
 audit the financial statements of the African Development Foundation as of September 30, 2004 and
 2003 and for the years then ended. The contract required that the audits be performed in accordance
 with generally accepted auditing standards; generally accepted government auditing standards; and
 Office of Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial
 Statements.

 In its audits of the African Development Foundation’s (ADF) Fiscal Year 2004 Financial Statements,
 the LGB auditors found;

   •	 that the financial statements were fairly presented in conformity with U.S. generally accepted
      accounting principles
   •	 a material weakness in ADF’s internal controls, and
   •	 four instances of noncompliance related to the inadequacy of its financial and accounting system.

 The material weakness in internal controls relates to an inadequacy in the system used by the
 Department of Interior, National Business Center, to process ADF’s transactions. Because of this
 weakness, significant financial statement elements were developed from sources other than the general
 ledger.




                                                    1

The auditors also noted instances of noncompliance with the Budget and Accounting Procedures Act of
1950; OMB Circular A-127; Federal Financial Management System Requirements issued by the
Joint Financial Management Improvement Program; and the Federal Financial Management
Improvement Act.

In carrying out its oversight responsibilities, the OIG reviewed LGB’s report and related audit
documentation. This review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable the OIG to express, and we do not express,
opinions on ADF’s financial statements or internal control; on whether ADF’s financial management
systems substantially complied with FFMIA; or on ADF’s compliance with laws and regulations. LGB
is responsible for the attached auditor's report, dated November 12, 2004, and the conclusions
expressed in the report. However, our review disclosed no instances where LGB did not comply, in all
material respects, with applicable standards.

Because of the reported material weakness and compliance findings, we are making the following
recommendations to ADF management:

Recommendation No. 1: We recommend that the African Development Foundation implement
the U.S. Standard General Ledger at the transaction level.

Recommendation No. 2: We recommend that the African Development Foundation implement
an accounting system capable of providing full disclosure of its results of financial operations
and adequate financial information needed in the management of its budget and operations,
and of providing effective control over its revenues, expenditures, funds, property, and other
assets in accordance with the Budget and Accounting Procedures Act of 1950, OMB Circular
A-127, and the Joint Financial Management Improvement Program’s Federal Financial
Management System Requirements.

We have incorporated your comments in our report in Appendix I of this report.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of LGB
during the audit. If you have questions concerning this report, please contact Andrew Katsaros at (202)
712-4902.




                                                  2

Table of
   Management’s Discussion and Analysis               5

Contents

            Independent Auditor’s Report                       17


            Balance Sheet                                      24


            Statement of Net Cost                              25


            Statement of Changes in Net Position               26


            Statement of Budgetary Resources                   27


            Statement of Financing                             28


            Notes to the Financial Statements                  29


            Appendix I - Management Comments                   36


            Appendix II - Status of Prior Year Audit Finding   38





                                        3

This page intentionally left blank.




     4

                         MANAGEMENT'S DISCUSSION AND ANALYSIS


The African Development Foundation's (ADF) mission is to support community-led, demand-driven
development in Africa and generate best practices for grassroots African development that are sustainable and
replicable. ADF accomplishes this mission by providing funding to nongovernmental organizations (NGOs) and
small enterprises that help these local entities invest in their communities and become self-sustaining.

ADF is a unique organization that supports projects of $250,000 or less. These projects are conceived,
designed, implemented and managed by local NGOs and small businesses in 15 sub-Saharan African countries.
The Foundation was established as a federal agency and public corporation by the African Development
Foundation Act of 1980, and it began active program operations in 1984. Since that time ADF has funded more
than 1600 projects across Africa.

Foundation grants help African NGOs and small businesses:

•	 Develop viable micro enterprises and small enterprises that generate higher incomes, new jobs, and higher
   rates of self-employment in some of Africa’s poorest communities;
•	 Achieve the capacity to tap regional and international market opportunities;
•	 Build self-supporting, sustainable, local community development agencies;
•	 Promote community based interventions that mitigate the social and economic impact of HIV/AIDS; and
•	 Strengthen democratic values and institutions at the local level.

ADF practices a thorough, three-stage grant review process that includes detailed reviews of:

    1.	 initial applications and applicant project sites,
    2.	 project concept papers, and
    3.	 final project papers that include clearly structured implementation plans and full budgetary and financial
        analyses.

Most of ADF's grants are greater than $50,000, and the maximum grant value is normally $250,000. Grants
larger than $250,000 require special approval from ADF’s Board of Directors. To help enhance the impact of
its funding, ADF often assists its beneficiaries in leveraging grants, loans, and loan guarantees from other
sources. This enhancement is accomplished through strategic partnerships with national and regional
governments in Africa, national and regional development banks, other international development assistance
agencies, and private sector entities.

Unlike most development agencies, ADF works directly with African producer groups and nongovernmental
organizations. The Foundation does not channel any of its resources through governments. All ADF-funded
projects are initiated by the enterprise or community groups. Rather than designing projects on behalf of its
grantees, ADF works with the local partner nongovernment organizations (NGOs) to help applicants define
and acquire the assistance they need to achieve project goals. The Foundation's participatory approach to


                                                        5

development ensures local ownership and strong local participation. This approach has been shown to enhance
the impact and sustainability of ADF’s investments.

ADF is currently administering more than 220 projects in fifteen countries:



Benin                        Namibia                       Uganda
Botswana                     Niger                         Zambia
Cape Verde                   Nigeria                       Zimbabwe
Ghana                        Senegal
Guinea                       Swaziland
Mali                         Tanzania


                            ADF's Strategic Goals and Objectives for FY 2004

During FY's 2002 and 2003, ADF implemented an innovative business model to decentralize its headquarters
and field operations and provide in-country resources to support grantees. African professionals now serve as
the Country Representatives and staff the local Partner Organizations. During FY 2003, ADF also
established an additional six new strategic program alliances with African Governments, and recognized $1.3
million in leveraged contributions from existing strategic alliances. In addition, during the last quarter of FY 2003,
ADF negotiated and interagency agreement that will provide the Foundation with a federalized Financial
Management System to assist ADF in making timely financial decisions. Taking into consideration all these
challenges, the Foundation made remarkable progress toward achieving its Strategic Goals and Objectives for
FY 2004 (Table 1).


Promoting Innovative Trade and Investment

For the past several years, the African Development Foundation has been piloting exciting investments that
promote new export trade and investment (T&I) opportunities for small-scale African businesses and
agricultural cooperatives. The focus of these efforts is to identify and promote nontraditional export crops
and existing small-scale manufacturers or processors and to help these enterprises improve production and
productivity and successfully move their products into regional and international markets. The African
Growth and Opportunity Act of 2000 (AGOA) specifically recognized the important role of ADF in helping
to integrate small-scale producers at the grassroots level into the global economy.


ADF has ongoing T&I programs in Uganda, Tanzania, Zimbabwe, Namibia and Ghana focused on
assisting small-scale producers with their efforts to grow, process and export a variety of primary
commodities, including paprika, vanilla, silk, Nile perch, rock lobster, leather products, fruit juices, and sea
salt. In addition, the Foundation is currently launching new T&I programs in Zambia and Cape Verde, and

                                                          6

later this year will initiate programs in Nigeria. Most of these eight programs involve co-funding contributions
from African governments, and they leverage capital or technical assistance from the private sector. ADF
conducts rigorous financial analyses and market surveys as part of the design and approval process, similar
to what a venture capital firm would undertake to fund an activity. The Foundation also develops and tests
models for transferring technology to small producers.


These highly successful endeavors are proving that small African enterprises and African farmers can
diversify into new commodities, meet international standards, and successfully compete in the global
economy.

Strategic Partnerships


Under its new corporate strategy, the Foundation has set an objective to “establish strategic partnerships
with national and local governments, other donor agencies, and the local private sector, to support
sustainable, grassroots development.” Toward this end, ADF is building innovative partnerships that can
serve as vital sources of capital and technology to expand the impact of ADF’s program and disseminate
and replicate lessons learned and best practices for grassroots development.


The Foundation began strategic partnerships several years ago. The initial focus has been on leveraging
contributions from national and state governments. ADF is now expanding its efforts to attract contributions
from international and African corporations. In all these programs, the Foundation maintains and promotes
its core values – accountability, sustainability, innovation, and a commitment to building up grassroots-based
and African-owned investments. ADF is wholly responsible for ensuring accountability for funds, program
implementation, and achievement of targeted results.


At the end of FY 2002, ADF had three active strategic partnerships. In Botswana and Guinea, these
partnerships are both supported by the national government. In Nigeria the partnership is supported by the
Jigawa State Government. The work ADF has done under the Guinea partnership has been heralded by
World Bank officials as one of the most innovative approaches to rural infrastructure development in Africa,
and it is being used as a model for new World Bank-funded programs in Senegal and Niger. In Jigawa,
northern Nigeria, ADF received more than $500,000 in contributions for a program that has successfully
demonstrated a low-cost, appropriate-technology approach to constructing rural and peri-urban housing.
This model is already being replicated in other states in Nigeria. Moreover, this program has projected a
strong, positive American presence in Africa’s most populous nation and fostered goodwill between Nigeria
and the United States.


In FY 2003, ADF aggressively expanded its strategic partnerships through firm commitments of
contributions to co-fund projects in six additional countries. The Foundation is developing trade and

                                                       7

investment projects in Ghana, Zambia and Cape Verde, activities to provide sustainable income for AIDS
victims in Swaziland, and enterprise development projects in Mali and Senegal. Through these nine active
strategic partnerships, the Foundation expects to leverage at least $4.2 million in contributions for grassroots
development during FY 2005.


These partnerships are forged with the recognition that ADF’s approach is both unique and effective, as
captured by the comments of Zambian President Levy Mwanawasa: “Appreciating the grassroots work and
the activities that the African Development Foundation supports…I know very well that such support to
Zambia would be significantly very beneficial to our people.”


Based on discussions the Foundation has already had with other governments, as well as with large
corporate entities seeking to fund philanthropic activities, there is an unmet demand for ADF’s support and
great potential for additional strategic partnerships.




Strengthening Program Operations

The Foundation has undertaken a major restructuring of both its headquarters and field operations during
the past two and a half years to strengthen program operations. In response to recommendations from the
USAID Inspector General, the Foundation has established two new mechanisms for field operations: the
Partner Organization and the Country Representative.


ADF established the Partner Organization Development Program as a major strategic initiative and launched the
arrangement in early FY 2002. Our experience showed that there was a great need for professional indigenous
organizations that practice participatory development and are committed to grassroots development. The
Foundation’s objective is to “build self-supporting, sustainable, local development agencies that provide
technical assistance and support to grassroots groups.” Through an open, competitive grant process, ADF
selected a local nongovernmental organization in each country. Under a performance-based cooperative
agreement, which is renewable annually up to five years, the Foundation is building the capacity of indigenous
Partner Organizations to become professional development entities that are financially and institutionally
sustainable.

The Partner Organizations assist prospective grantees in developing proposals for funding. Partner Organizations
conduct rigorous financial analyses to ensure the viability and sustainability of proposed projects. After ADF
awards project grants, the Partner Organizations provide training in financial management and participatory
evaluation to grantees. They also routinely visit grantees to monitor their progress, assist them in rectifying
implementation problems, and advise them on preparing quarterly financial and performance reports.


                                                       8

The Country Representative reports to ADF and is independent of the in-country Partner Organization that
ADF supports. While the Partner Organization supports grantees, the Country Representative carries out
functions that support ADF and, hence, are overhead in nature. Their principal duties include analyzing the
viability of proposals, conducting due diligence on prospective grantees, assessing the financial management
capacity of new grantees, reviewing grantees’ use of funds throughout the life of the grant, monitoring project
implementation and remediation, and assessing program impact. The Country Representative makes
recommendations on new grants to be awarded but does not make the final determination on grant awards. A
Project Discussion Group at ADF’s Washington, DC headquarters reviews all project proposals and forwards
its recommendations on grant approval to ADF’s President, who has been delegated with the authority to
approve or decline grant awards by ADF’s Board of Directors. The President reviews grant recommendations
and sign the approving memo and obligating documents required to obligate a new grant.

In light of the new field structures, the Foundation has also realigned its headquarters staffing to give greater
attention to project analysis, financial management, support for initiatives in trade and investment and
HIV/AIDS, forging and implementing strategic partnerships, assessing program impact, disseminating lessons
learned and best practices, and strengthening outreach.

While the Foundation is optimistic that these new structures will improve efficiency and effectiveness over time,
ADF has had to undertake significant costs in transitioning to and launching these new structures during FYs
2003 and 2004. ADF is continuing to restructure headquarters and country representative staffing to reduce
these overhead costs in FY 2005.


Strengthening Financial Management and Information Management Systems

The African Development Foundation has greatly strengthened both its own financial management and that of its
grantees, and it has improved information management systems for headquarters operations and grants
administration.

ADF takes its fiduciary responsibilities very seriously. Despite the nascent capacity of many of its grantees, the
Foundation maintains high standards for financial accountability.

    •	 As part of the initial screening process of prospective grantees, ADF staff formally assesses a group’s
       capacity to control and account for funds and makes a certification of this capacity, identifying areas
       where additional training or remediation are required.

    •	 All grantees are required to submit quarterly financial reports and financial statements.

    •	 After a grant is approved, the Partner Organization provides a five-day training course on ADF’s
       accounting procedures and reporting requirements. Each of the Partner Organizations has a full-time,
       experienced Financial Officer on staff who provides initial training and refresher training and advice as
       needed.

                                                        9

    •	 The Country Representative monitors reporting by grantees and makes regular site visits to check
       project accounting and monitor overall implementation progress.

    •	 In addition, ADF contracts with independent audit firms in each country where it operates to conduct
       audits. Each grant over $50,000 is audited at least once during its tenure.

ADF maintains financial oversight of all Partner Organizations that have cooperative agreements with the
Foundation. An internal audit of each Partner Organization is conducted every year. This audit is conducted by
ADF’s Internal Audit Department (IAD) and by independent auditors contracted and managed by IAD who are
based in the Partner Organization’s country of operation.

ADF undergoes annual, independent audits that address its financial statements, internal controls, and
compliance with United States Government laws and regulations. For the past three years, the Foundation has
received an unqualified opinion on all five financial statements, as well as its comparative FY 2001/2002 and FY
2002/2003 statements, from its independent auditors. Thus, the Foundation is in full compliance with all OMB
requirements and new statutes, including the Accountability for the Tax Dollar Act. These are major
accomplishments.

To further strengthen its financial management, ADF has negotiated an interagency agreement with Department
of Interior’s National Business Center to provide full system support that utilizes the federal government-
approved Oracle Financial Management system. This agreement will ensure the integrity of ADF’s financial data
and will provide timely reports to assist ADF management in making key decisions regarding the Foundation’s
financial operations. With implementation virtually completed during FY 2004, the financial statement audit for
FY 2004 year will be conducted using information generated by the Oracle Financial Management system. This
is a major accomplishment and represents a significant improvement in ADF’s financial management capabilities.

Finally, ADF has a comprehensive grants database to improve management oversight and internal controls for
financial reporting by grantees and Partner Organizations. ADF is currently using the database to support its
year-end financial statements. In FY 2004, the Foundation plans to expand the database to include more
information on project performance and results.




                                                      10

Table 1. ADF'S Strategic Goals and Objectives for FY 2004


        Goal I: Advance broad-based, sustainable development and empowerment of the poor in
        Africa

                Objective 1: Promote micro- and small-enterprise development that will generate income
                and employment

                Objective 2: Increase participation of African grassroots enterprises and producer groups
                in trade and investment relationships with the U.S. and within Africa

                Objective 3: Promote innovative community-based interventions to remediate the
                economic and social impact of HIV/AIDS and reduce its spread

        Goal II: Expand local capacity to promote and support grassroots, participatory development

                Objective 1: Build self-supporting, sustainable, local community development agencies that
                provide technical assistance and support to grassroots groups

                Objective 2: Promote community resource mobilization and reinvestment

                Objective 3: Establish strategic partnerships with national and local governments, other
                donor agencies, and the local private sector, to support sustainable, grassroots development

                Objective 4: Encourage African governments and other donors to increase utilization
                of participatory development "best practices"

Selected Performance Indicators

ADF’s programs have a significant and measurable impact on improving the lives of Africa’s poorest
communities. Indeed, during the past four years, more rigorous efforts to enhance the screening, design and
monitoring of projects have helped the Foundation significantly improve its performance measures.

In FY 2003, the Foundation exceeded all of its project-related performance targets, including:

    •	 ADF helped grow more than 80,000 micro and small enterprises – almost fifteen times more than in
       1999.

    •	 Half of the direct beneficiaries from ADF’s MSE support were women.


                                                    11

    •	 More than $15.1 million in small loans were extended to micro-entrepreneurs who could not access
       credit from a formal bank; nearly 62 percent of those beneficiaries were women.

    •	 ADF-assisted businesses in the active projects generated an estimated $28.8 million in annual revenue
       and more than $6.4 million in profits after project inception.

    •	 In addition, ADF’s catalytic investments in small African businesses and agricultural cooperatives that
       produce for the global market generated more than $12.0 million in revenues.

    •	 ADF funding provided training in HIV/AIDS prevention to more than 280,000 people, most of whom
       do not have access to critical, life-saving HIV/AIDS information. The Foundation also began a new
       pilot program of small grants to mitigate the economic and social impact of this devastating epidemic.

ADF is currently in transition in regard to its strategic plan, and the Foundation’s Board of Directors will adopt a
new strategic plan with revised goals and objectives during FY 2005. At that time, the Foundation will take
steps to ensure that all of its performance indicators are fully aligned with the Foundation’s goals and objectives.
This will allow the Foundation to provide data on its annual success in achieving its primary goals and objectives.




                                                        12

Table 2. Actual Performance Results for Fiscal Years 2000, 2001, 2002 and 2003

Performance Indicator               FY 2000          FY 2001          FY 2002          FY 2003
Micro- and Small Enterprise
Development
Enterprises assisted                 19,635           47,049           86,180            80,946
Owners and employees in              47,168           36,457           96,854           112,802
assisted enterprises
Women as a percent of                77.0%               56.8%         58.1%            48.2%
employees in assisted
enterprises
Enterprises receiving loans          42,518           54,099          65,319           67,893
Values of loans disbursed           Indicator        Indicator      $11.2 million    $15.1 million
                                    Not in use       not in use
Percent of total value of loans      81.7%             50.8%           60.6%            61.8%
for women*
Total gross revenues of            Indicator        $17.5 million   $53.4 million    $28.8 million
assisted enterprises and           Not in use
organizations
Total net income of assisted       Indicator        $10.5 million   $14.6 million     $6.4 million
enterprises and organizations      Not in use
Trade and Investment
Number of export products               2                 4              19            Indicator
promoted                                                                             discontinued
Total gross revenues of            Indicator         Indicator       $7.6 million    $12.0 million
assisted enterprises and           Not in use        not in use
organizations from export sales
AIDS Prevention & Mitigation
People receiving training in           962            35,483          274,041           282,089
AIDS prevention
Women as a percent of people       Indicator             57.0%         66.8%            64.9%
receiving AIDS prevention trg*     Not in use
Participatory Development
Methods
Partner Organizations assisted         13                 14             13                13
Host governments encouraging           2                  2              4                 8
donors to adopt PDM or
allocating more funding to
PDM

* The actual percentages for women are higher than reported since all beneficiaries were counted as men when

                                                    13
gender-disaggregated data was not available; thus percentage of women as beneficiaries is a conservative,
lower-bound estimate.

                                            Future Activities

ADF’s FY 2005 request will allow the Foundation to initiate program operations in two new countries
where the Foundation can make a significant contribution to broad-based economic and social development
by funding projects that follow a grassroots, participatory approach. New countries currently under
consideration include Kenya, Liberia, Sierra Leone, and the Sudan in the first priority tier and Angola,
Eritrea, and Mozambique in the second priority tier. At the lower request level for FY 2005, ADF would
not be able to begin operations in any new countries.

The requested appropriation would be used to:

    •	 Increase the access of micro- and small- enterprises to credit, improved technologies, training and
       technical assistance, and other business development services;

    •	 Promote new export trade and investment opportunities (T&I) for African enterprises, especially
       those involving U.S. businesses and small-scale producers in Africa. The African Growth and
       Opportunity Act of 2000 (AGOA), which was passed with strong bipartisan support, specifically
       recognizes the important role of ADF in helping to integrate small-scale producers at the grassroots
       level into the global economy;

    •	 Support innovative, indigenous approaches to AIDS prevention and to mitigating the catastrophic
       financial, economic, and social problems that the epidemic causes in families and communities;

    •	 Build, sustainable local community development agencies that support participatory grassroots
       development;

    •	 Promote community reinvestment;

    •	 Establish additional strategic partnerships with national and local governments, donors, and the
       private sector; and

    •	 Encourage African governments and major development assistance organizations to increase use of
       participatory development methods.


ADF Quality Assurance, Internal Controls and Legal Compliance

In 1994, ADF established an Internal Audit Department (IAD) with a full-time Financial and Field Auditor who
reported directly to the President. The IAD is based at ADF’s Washington, DC headquarters, and its activities

                                                     14

are solely dedicated to conducting and managing audits of ADF’s Partner Organizations and Grantees. The IAD
manages the audit program for project grantees, determines which projects will be auditied, defines the scope of
work required for each audit, evaluates the performance of contracted auditing firms, and authorizes payment to
contracted auditing firms. The Foundation's Board of Directors has a designated audit committee who are
responsible for all audit and review functions of the Foundation. ADF's Internal Financial and Field Auditor is
primarily responsible for the financial oversight of all partner organizations. The IAD conducts an on site internal
audit of each partner organization at least once every two years and reviews the results of the partner's yearly
independent audit.

In addition to the Financial and Field Auditor, IAD also has a full-time Financial Control Officer whose primary
responsibility is oversight of the Foundation's grantees. The Financial Control Officer also supervises the
independent external audit of ADF's grant program.

ADF’s grants database has a full time Grants Database and Operations Manager, who is the primary person
responsible for the continued integrity and security of all grantee administrative and financial data reported.
Following the conversion of the Financial Management System (FMS) in FY 2004, ADF will interface grant
database with its FMS to facilitate timely management analysis of financial data and ensure regulatory
compliance.

Comments on Financial Statements

ADF is pleased to report that in FY 2004 the Foundation continued to receive an unqualified opinion on all five
financial comparative statements from its independent auditors Leonard G. Birnbaum and Company, and the
USAID Office of the Inspector General. Since FY 2001, ADF has received an unqualified opinion on the
Balance Sheet, the Statement of Net Costs, the Statement of Net Position, the Statement of Budgetary
Resources, and the Statement of Financing.

Limitations of the Financial Statements

ADF's principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b).

While the statements have been prepared from books and records in accordance with generally accepted
accounting principles (GAAP) for federal entities and the formats prescribed by the Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control budgetary resources
which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                        15

AFRICAN DEVELOPMENT FOUNDATION

 INDEPENDENT AUDITOR’S REPORT

    SEPTEMBER 30, 2004 and 2003





   Leonard G. Birnbaum and Company

      Certified Public Accountants

          6285 Franconia Road

      Alexandria, Virginia 22310

             (703) 922-7622

              16

                                  INDEPENDENT AUDITOR’S REPORT


To the Board of Directors and the President,
African Development Foundation:

        We have audited the African Development Foundation’s (ADF) Balance Sheets, Statements of Net
Cost, Statements of Changes in Net Position, Statements of Budgetary Resources and Statements of Financing
as of and for the years ended September 30, 2004 and 2003 (collectively the Principal Financial Statements);
we have examined internal control over financial reporting in place as of September 30, 2004; and we have
examined compliance with laws and regulations.

        In our opinion, ADF’s 2004 and 2003 Principal Financial Statements are presented fairly in all material
respects.

We found:

        �   an instance of material weakness in the internal controls over financial reporting,
        �   instances of noncompliance with selected provisions of applicable laws and regulations involving
            ADF’s financial management system, and
        �   noncompliance with the Federal Financial Management Improvement Act (FFMIA) of 1996.

Each of these conclusions is discussed in more detail below. This report also discusses the scope of our work.


                              PRINCIPAL FINANCIAL STATEMENTS

         In our opinion, ADF’s 2004 and 2003 Balance Sheets, Statements of Net Cost, Statements of Changes
in Net Position, Statements of Budgetary Resources, and Statements of Financing, including the notes thereto,
present fairly, in all material respects, ADF’s financial position as of September 30, 2004 and 2003, and the net
cost of operations, the changes in net position, and use of budgetary resources, and the use of financing, for the
years then ended, in conformity with accounting principles generally accepted in the United Sates of America.




                                                       17

                                           INTERNAL CONTROL

        We considered ADF’s internal control over financial reporting in order to determine our auditing
procedures for the purpose of expressing our opinion on the Principal Financial Statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in the Office of
Management and Budget’s (OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements.
We did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient operations. The
objective of our audit was not to provide assurance on internal control. Consequently, we do not provide an
opinion on internal control.

        The objectives of internal control are to provide management with reasonable, but not absolute,
assurance that the following objectives are met:

        •	 transactions are properly recorded and accounted for to permit the preparation of reliable financial
           reports and to maintain accountability over assets;

        •	 funds, property, and other assets are safeguarded against loss from unauthorized acquisition, use, or
           disposition; and

        •	 transactions, including those related to obligations and costs, are executed in compliance with laws
           and regulations that could have a direct and material effect on the financial statements and other
           laws and regulations that the Office of Management and Budget (OMB), or ADF management have
           identified as being significant for which compliance can be objectively measured and evaluated.

        •	 data that support reported performance measures are properly recorded and accounted for to
           permit preparation of reliable and complete performance information.

         Our consideration of internal control would not necessarily disclose all matters of internal control over
financial reporting that might be reportable conditions. Under standards issued by the American Institute of
Certified Public Accountants, reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of internal control that, in our judgement, could adversely affect ADF’s
ability to record, process, summarize, and report financial data consistent with the assertions of management in
the financial statements. Material weaknesses are reportable conditions in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the risk that errors or
irregularities in amounts, which would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of performing their assigned
functions.




                                                     18

        We noted the following matter that we considered to be a material weakness as defined above. ADF’s
financial and accounting system, as of September 30, 2004 was inadequate. The principal areas of inadequacy
were:

        �   Because of inadequacies of entering all transactions in the financial management system used by the
            Department of Interior, National Business Center to process ADF’s transactions, significant
            elements of the financial statements including, but not limited to, grant advances, prepayments,
            franchise fund, accounts payable, undelivered orders, unexpended appropriations, and expenses;
            were developed from sources other than the general ledger.

        �   The United States Standard General Ledger has not been implemented at the transaction level.

        This deficiency in internal control may adversely affect any decision by management that is based, in
whole or part, on information that is inaccurate because of this deficiency. Un-audited financial information
reported by ADF, including budget information, also may contain misstatements resulting from this
deficiency.
        Finally, with respect to internal control related to performance measures reported in Management’s
Discussion and Analysis, we obtained an understanding of the design of significant controls relating to the
existence and completeness assertions and determined whether those controls had been placed in operation
as required by OMB Bulletin 01-02. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and, accordingly, we do not provide an opinion on such
controls.
        We noticed certain other matters involving the internal control structure and its operation that we have
reported to the ADF’s management in a separate letter dated November 12, 2004.




                                                    19

                               COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to ADF. As part
of obtaining reasonable assurance about whether the financial statements are free of material misstatement, we
performed tests of ADF’s compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statements amounts, and certain other
laws and regulations specified in OMB Bulletin 01-02, including the requirements referred to in FFMIA. We
limited our tests of compliance to these provisions, and we did not test compliance with all laws and regulations
applicable to ADF. The objective of our audit of the Principal Financial Statements, including our tests of
compliance with selected provisions of applicable laws and regulations, was not to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion.

         Material instances of noncompliance are failures to follow requirements or violations of prohibitions in
statutes and regulations, which cause us to conclude that the aggregation of the misstatements resulting from
those failures or violations is material to the financial statements or that sensitivity warrants disclosure thereof.

         The results of our tests of compliance with the laws and regulations described in the preceding
paragraph, exclusive of FFMIA, disclosed the following instances of noncompliance with laws and regulations
that are required to be reported under Government Auditing Standards and OMB-Bulletin 01-02, which are
described below.

    •	 The inadequacy of the financial and accounting system articulated above, in the internal control section,
       is a failure to comply with:

        �   The Budget and Accounting Procedures Act of 1950 (Sec. 113), which requires an accounting
            system that provides full disclosure of the results of financial operations, adequate financial
            information needed in the management of operations and the formulation and execution of the
            budget, and effective control over income, expenditures, funds, property, and other assets.

        �   JFMIP’s Federal Financial Management System Requirements state that the core financial
            management systems must support the partnership between program and financial managers, and
            assure the integrity of decision-making information including the ability to collect accurate, timely,
            complete, reliable, and consistent information. JFMIP also requires that the core financial system be
            able to provide financial information to support internal and external reporting requirements,
            including as necessary the requirements for financial statements. OMB guidance states that one
            indicator of compliance with this standard is that the ADF’s core financial system, supported by
            other systems containing the detailed data summarized in the core financial system, be the source of




                                                      20

        information for the preparation of the annual financial statements. However, the ADF’s core financial
        system is not the sole source of information used in the preparation of the annual financial statements.

        �   OMB Circular A-127, Financial Management Systems, which requires ADF to establish and
            maintain an accounting system that provides for (1) complete disclosure of the financial results of the
            activities of the agency, (2) adequate financial information for agency management and for
            formulation and execution of the budget, and (3) effective control over revenue, expenditures,
            funds, property, and other assets.


    The results of our tests of compliance with other laws and regulations disclosed no material instances of
noncompliance. Compliance with the Federal Financial Management Improvement Act (FFMIA) of 1996 is
discussed below.

    Under FFMIA, we are required to report whether the ADF’s financial management systems substantially
comply with the federal financial management system requirements, applicable accounting standards, and the
United States Standard General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance using the implementation guidance for FFMIA issued by OMB on January 4, 2001.

    The results of our tests disclosed instances, as described below; where the ADF’s financial management
systems did not substantially comply with the requirement to follow the federal financial management system
requirements. OMB implementation guidance states that, to be in substantial compliance with this requirement,
the ADF must (i) implement United States General Ledger at the transaction level (ii) meet specific requirements
of OMB Circular A-127. We found two instances of substantial noncompliance with these standards.

    �   Circular A-127 requires that the ADF’s systems support management’s fiduciary role by providing
        complete, reliable, consistent, timely and useful financial management information. Based on the
        weaknesses related to financial management systems discussed in the report on internal controls and the
        preceding paragraphs in the report on compliance, we determined that the ADF was not substantiallyin
        compliance with this standard.

    �   The United States Standard General Ledger has not been implemented at the transaction level.

ADF has overall responsibility for the its financial management systems, during 2004, ADF has changed its
accounting service provider from General Services Administration to Department of Interior, National Business
Center. But this conversion has not yet been fully implemented as of September 30, 2004.

        We noted certain other instances of noncompliance that we have reported to the ADF’s management in
a separate letter dated November 12, 2004.



                                                     21

                                   RESPONSIBILITIES AND METHODOLOGY

ADF management has the responsibility for:

        •	 preparing the Principal Financial Statements and other accompanying information in conformity with
           accounting principles generally accepted in the United States of America;

        •	 establishing and maintaining effective internal control; and
        •	 complying with applicable laws and regulations.

         Our responsibility is to express an opinion on these Principal Financial Statements based on our audit.
Auditing standards generally accepted in the United States of America require that we plan and perform the
audit to obtain reasonable assurance about whether the Principal Financial Statements are free of material
misrepresentation and presented fairly in accordance with accounting principles generally accepted in the United
States of America. We considered ADF’s internal control for the purpose of expressing our opinion on the
Principal Financial Statements referred to above and not to provide an opinion on internal control. We are also
responsible for testing compliance with selected provisions of applicable laws and regulations that may materially
affect the financial statements.

        In order to fulfill these responsibilities, we

        �   examined, on a test basis, evidence supporting the amounts and disclosures in the Principal
            Financial Statements;

        �   assessed the accounting principles used and significant estimates made by management;

        �   evaluated the overall presentation of the Principal Financial Statements;

        �   obtained an understanding of the internal controls over financial reporting by obtaining an
            understanding of the agency’s internal control, determined whether internal controls had been
            placed in operation, assessed control risk, and performed tests of controls;

        �   obtained an understanding of the internal controls relevant to performance measures included in
            Management’s Discussion and Analysis, including obtaining an understanding of the design of
            internal controls relating to the existence and completeness assertions and determined whether they
            had been placed in operations;

        �   obtained an understanding of the process by which the agency identifies and evaluates weaknesses
            required to be reported under FMFIA and related agency implementing procedures;



                                                         22

        �   tested compliance with selected provisions of laws and regulations that may have a direct and
            material affect on financial statements;

        �   obtained written representations from management; and

        �   performed other procedures, as we considered necessary in the circumstances.


        Our audits were conducted in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing Standards
and OMB Bulletin 01-02. We believe that our audits provide a reasonable basis for our opinion.

         The Management’s Discussion and Analysis is not a required part of the Principal Financial Statements,
but are supplementary information required by OMB Bulletin 01-09, Form and Content of Agency Financial
Statements, and the Federal Accounting Standards Advisory Board. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement and
presentation of the supplementary information. However, we did not audit the information and express no
opinion on it.

        This report is intended for the information of the Inspector General of ADF and management of the
African Development Foundation. This restriction is not intended to limit the distribution of this report, which is
a matter of public record.

/s/

Leonard G. Birnbaum and Company, LLP

Alexandria, Virginia
November 12, 2004




                                                     23

                                       African Development Foundation
                                              BALANCE SHEET
                                      As of September 30, 2004 and 2003

                                                                  Notes                 FY 2004          FY2003
ASSETS

    Intragovernmental:
         Fund Balance with Treasury                                 3                $25,074,008     $ 22,627,277
         Fund Balance held outside Treasury                         3                  1,254,368          724,296
    Intragovernmental                                                                 26,328,376       23,351,573

    General property, plant and equipment – Net                     5                     497,933         370,838

         Travel advances                                            4                       98,130          59,400
         Grants advances                                            4                    2,596,270       1,755,283
         Prepayments                                                4                      712,564       1,198,957

TOTAL ASSETS                                                                         $30,233,273     $ 26,736,051


LIABILITIES

    Accounts Payable                                                7               $     237,864    $    107,147
    Accrued Payroll                                                 7                      83,197          84,454
    Accrued Leave                                                   7                     207,309         183,402
    Other liabilities                                               7                     133,578         118,296

TOTAL LIABILITIES                                                                       $ 661,948    $    493,299

NET POSITION
   Unexpended Appropriations                                                          26,562,115       23,805,948
   Cumulative Results of Operations                                                    3,009,210        2,436,804
   TOTAL NET POSITION                                                                $29,571,325     $ 26,242,752

TOTAL LIABILITIES AND NET POSITION                                                   $30,233,273     $ 26,736,051




                              The accompanying notes are an integral part of these statements.

                                                            24
                                    African Development Foundation
                                    STATEMENT OF NET COST
                           For the Years Ended September 30, 2004 and 2003


                                                                   FY 2004        FY2003
                                                                    Grant          Grant
                                                                    Program       Program

PROGRAM COSTS

   Program expenses                                                $ 8,280,561   $ 8,450,837

   Operating Expenses – Public                                       7,686,746      6,371,889

   Operating Expenses – Intragovernmental                             177,003        125,000

TOTAL PROGRAM COSTS                                                 16,144,310     14,947,726

NET PROGRAM COSTS                                                   16,144,310     14,947,726

NET COST OF OPERATIONS                                             $16,144,310   $ 14,947,726




                                               25

                                       African Development Foundation
                              STATEMENT OF CHANGES IN NET POSITION
                              For the Years Ended September 30, 2004 and 2003


                                                        FY 2004                                FY 2003
                                        Cumulative Results    Unexpended        Cumulative Results Unexpended
                                Notes     of Operations      Appropriations        of Operations Appropriations


Beginning Balances                              $ 2,436,804     $23,805,948           $2,263,509 $18,963,953

Budgetary Financing Sources
  Appropriations Received                                        18,689,000                             18,689,000

Rescission & Cancelled Resources                                   (110,266)                              (121,479)

Appropriations Used                             15,822,567       (15,822,567)           13,725,526      (13,725,526)

Nonexchange Revenue

   Donations – Expendable          6               717,146                               1,276,584
   Imputed Financing                               177,003                                 125,000

   Other                                                                                    (6,089)


Net Cost of Operations                          (16,144,310)                          (14,947,726)

Ending Balances                                $ 3,009,210      $26,562,115           $ 2,436,804     $ 23,805,948




                                                      26

                                   African Development Foundation

                       COMBINED STATEMENT OF BUDGETARY RESOURCES

                          For the Years Ended September 30, 2004 and 2003


                                                            Notes     FY 2004                    FY2003

BUDGETARY RESOURCES

     Budget Authority – Appropriation                                $18,689,000              $ 18,689,000

     Unobligated Balance Brought Forward, October 1                    3,165,861                 2,336,486

     Spending Authority from Donations                                  717,146                  1,276,584


     Adjustments:
       Net Results of Foreign Currency Adjustment PY Obligations       2,189,626                (2,592,891)
       Rescission Current Year                                          (110,265)                 (121,479)
       Permanently not available                                        (935,257)                 (189,775)

TOTAL BUDGETARY RESOURCES                                           $23,716,111$              19,397,925

Obligations Incurred – Current Period                                 18,023,993                16,232,064

Unobligated balances – available                              3        5,314,632                 2,652,031

Unobligated balances – unavailable                            3         377,486                   513,830

TOTAL STATUS OF BUDGETARY RESOURCES                                 $ 23,716,111              $ 19,397,925

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

Obligated balance, Net – Beginning of Period                          18,551,284                15,350,883

Obligated balance – Net End of Period
Accounts Payable                                                                    321,060
 -

     Undelivered Orders                                               20,315,198                18,551,284
                                                                      20,636,258                18,551,284

Outlays:
    Disbursements                                                     15,920,824                12,702,987
    Collections                                                         (717,146)               (1,276,584)

Net Outlays                                                          $15,203,678              $ 11,426,403




                                                      27

                                        African Development Foundation

                                        STATEMENT OF FINANCING

                               For the Years Ended September 30, 2004 and 2003


                                                                         FY 2004          FY2003

RESOURCES USED TO FINANCE ACTIVITIES

Obligations Incurred                                                    $18,023,993    $ 16,232,064

   Less: Spending Authority from Offsetting Collections & Adjustments    (2,189,625)         39,723
   Net Obligations                                                       15,834,368      16,271,787

   Donated revenue                                                         717,146        1,276,584
   Financing Imputed for Cost Subsidies                                    177,003          125,000

Net Other Resources Used to Finance Activities                             894,149        1,401,584

Total Resources Used to Finance Activities                               16,728,517      17,673,371


RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in budgetary resources not yet provided (Increase)               (522,313)     (2,011,670)
   Resources that finance the acquisition of assets                        (239,924)     (1,588,524)
   Total resources that do not fund net costs                              (762,237)     (3,600,194)

Total Resources Used to Finance Net Cost of Operations                   15,966,280      14,073,177

Costs that will not Require Resources in this Period:
  Increase in Accrued Annual Leave Liability                                23,907               -
  Exchange Revenue from the Public (Increase)                                    -         721,315
  Total Costs that will Not Require Resources in this Period                23,907         721,315

Components not Requiring Resources

   Bad Debt Related to Uncollectible Receivables                                 -          17,092
   Loss/Gains on the Disposal of Assets                                          -           6,089
   Depreciation                                                            154,123         130,052

Total costs that do not require resources                                  154,123         153,233

NET COST OF OPERATIONS                                                  $16,144,310    $ 14,947,725




                                                         28

                                      African Development Foundation

                                      Notes to the Financial Statements

                                         As of September 30, 2004



Note 1. Organization

The African Development Foundation (“ADF” or “the Foundation”) is a government-owned corporation
established by Congress under the African Development Foundation Act in 1980 and began operations in 1984.
 The Foundation is the principal agency of the U.S. Government that supports community-based, self-help
initiatives that alleviate poverty and promote sustainable economic and social development in Africa at the
grassroots level. The Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships with
local organizations, staffed with African professionals, in each of the countries in which it operates. Over the past
20 years, the Foundation has funded more than 1600 projects in 34 African countries.


Note 2. Significant Accounting Policies

    A. Basis of Presentation

The accompanying financial statements have been prepared on the accrual basis to report the financial position
and results of operation in accordance with the concepts and standards contained in the Statements of Federal
Financial Accounting Standards, as required by the Chief Financial Officers Act of 1990. These statements
have been prepared from the books and records of the Foundation in accordance with the form and content for
federal financial statements specified in the Office of Management and Budget (OMB) in OMB Bulletin No. 01­
09, as amended, and the Foundation’s accounting policies, which are summarized in this note.

    B. Basis of Accounting

Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are
recognized when the funds are expended, without regard to receipt or payment of cash. The preparation of the
financial statements in conformity with generally accepted accounting principles requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent
assets and liabilities at the date of the financial statements, and the reported amounts of grants and expenses
during the reporting period. Actual results will invariably differ from those estimates.




                              The accompanying notes are an integral part of these statements.

                                                            29
    C. Fund Balances with Treasury and Cash

The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
Foundation is authorized to make expenditures and pay liabilities. The Foundation also maintains cash in a
commercial account at Deutsche Bank Trust Company Americas in New York to process the award of grant
funds to recipients in U.S. currency. In addition, commercial, noninterest bearing accounts (in local currencies)
are maintained with Barclays Bank of Botswana, Citibank Nigeria, and Banco Comercial do Atlantico in Cape
Verde to process grant funds for those countries. An account at Ecobank in Guinea has also been opened,
however, those funds have been judged by GOA as not available to ADF for project funding. Thus, funds will
have to be returned to the government of Guinea. The governments of Botswana and Cape Verde co-fund all
grants with matching grant funds deposited to the respective country bank accounts. The government of Jigawa
State in Nigeria has co-funded four housing projects. ADF controls all disbursements from these accounts.

    D. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local
currencies to facilitate accounting by the recipient organizations. Depending on the nature of the transaction,
foreign currencies are translated into dollars at the actual exchange rate received by the Foundation when the
transaction is made or at the prevailing exchange rate at the beginning of the month in which the transaction
occurred. The value of obligations incurred by the Foundation in foreign currencies varies from time to time
depending on the current exchange rate. The Foundation adjusts the value of its obligations at the end of each
quarter during the year to reflect the prevailing exchange rates. Downward adjustments to prior year
obligations based on favorable foreign currency exchange rates will be made available for obligation if the
adjustment occurs within the Foundation’s authorized two year funding period. Upward adjustment to prior
year obligations based on unfavorable foreign currency exchange rate with the U.S. dollar will be made from
funds made available for upward adjustments, if any, or from currently available funds.

    E. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month
period. Grantees report to the Foundation periodically on the actual utilization of these funds. For purposes of
these financial statements, the Foundation treats disbursements to grantees as advances. The advance is reduced
when the grantee reports expenditures. The total grant advance is the total amount disbursed to the grantee less
the total expended for open (nonexpired) grants as of the reporting date. In order to ensure timeliness in
reporting grantee expenditures, the Foundation will use estimates to complete to calculate the last quarter’s
grantee expenditures based on historical expenditure trends since 1996. The actual expenditures adjustments
will be reported in the following quarter’s financial statements. Once a grant has closed (expired or cancelled)
any excess disbursement is reclassified as an Accounts Receivable.




                                                         30

    F. Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses upon
receipt of employee travel vouchers.


    G. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment
is depreciated using the straight–line method over useful lives, which is estimated at five years. Equipment with
an acquisition cost of less than $5,000 or less than two years of life is expensed when purchased.

    H. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors, for goods and
services received by ADF.

    I. Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or against it. According
to the Foundations legal counsel, the likelihood of unfavorable outcomes for all these legal actions and claims is
remote. In the opinion of the Foundation’s management, the ultimate resolution of these proceedings, actions,
and claims will not materially affect the financial position or results of operations of the Foundation.

    J. Annual, Sick, and Other Leave

Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
the Foundation calculates the value of the accrued annual leave at the end of the year based on current pay
rates. Funding for payment of accrued annual leave at the end of the year will be taken from future financing
sources. Sick leave and other types of nonvested leave are expensed as taken.

    K. Retirement Plan

The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employees Retirement System (FERS). The Foundation makes statutory contributions to the Office of
Personnel Management for employees enrolled in each plan. The Foundation does not report accumulated
assets, plan benefits or unfunded liabilities, if any, attributable to its employees. The Office of Personnel
Management reports such amounts.




                                                      31

    L. Trust Fund

The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift authority.

    M. Reclassifications

Certain accounts in fiscal year 2003 were reclassified to confirm with the fiscal year 2004 presentation.


Note 3. Fund Balance with Treasury

Fund Balances and Funds Held Outside Treasury

ADF’s Fund Balance with Treasury and Funds Held Outside Treasury as of September 30, 2004 and 2003
are summarized below:

                                                                            FY 2004             FY 2003

                        Appropriated Funds                              $    25,057,645   $ 22,611,487
                        Trust Fund                                             16,363           15,790

                        Total Fund Balance with Treasury                $    25,074,008   $ 22,627,277

                        Deutsche Bank Trust Company                            96,952            39,232
                        Ecobank of Guinea                                     133,578           118,296


Note 3. Fund Balance with Treasury


              Barclays Bank of Botswana                                       740,773            515,471

              Citibank Nigeria                                                 39,013            51,297
              Cape Verde                                                      244,052                 ­

              Total Funds Held Outside Treasury                     $        1,254,368      $    724,296

              Total                                                 $       26,328,376          $ 23,351,573




                                                        32

B. Status of Fund Balance with Treasury                                     FY 2004              FY 2003

                        Unobligated Balance

                                Available                              $ 5,314,632               2,652,031
                                Unavailable                                377,486                 513,830

                        Obligated Balance not yet Disbursed            $20,636,258              20,185,712

                        Total                                          $ 26,328,376         $ 23,351,573


Note 4. Advances

   ADF’s advances as of September 30, 2004 and 2003 are summarized below:

                                                                           FY 2004               FY2003

                        Grants                                         $ 2,596,270          $ 1,755,283
                        Travel                                              98,130               59,400
                        Prepayments                                        712,564            1,198,957

                        Total                                          $ 3,406,963          $ 3,013,640

Note 5. Property, Plant and Equipment, Net

   Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life is two
   years or more. Equipment with an acquisition cost of less than $5,000 or less than two years of life is
   expensed when purchased.

        ADF’s property, plant and equipment as of September 30, 2004 and 2003

                                                                           FY 2004              FY 2003

               Equipment, at cost                                      $ 1,290,087          $ 1,050,162
               Accumulated Depreciation                                   (792,154)            (679,324)

               Equipment, net                                          $     497,933        $     370,838




                                                     33

Note 6. Donations & Other Revenues

   Donations recognized in FY 2004 and FY 2003 represents expendable donated/ funds that are generated
   by the Foundation through its strategic partnerships with national and local African governments.

                                                                       FY 2004             FY 2003

                       Government of the Republic of Botswana$ 467,146    $            804,840
                       Government of Jigawa State, Nigeria     $          -                 471,744
                       Government of Cape Verde                $    250,000                       ­

                       Total                                       $     717,146       $ 1,276,584


Note 7. Accounts Payable and Other Liabilities

   Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors for goods
   and services received by ADF, and accrued employee payroll and annual leave.

                                                                       FY 2004              FY 2003

                       Commercial vendors                          $     237,864       $     107,147
                       Government of Republic of Guinea                  133,578             118,296
                       Accrued employee payroll and leave                290,506             267,856

                       Total                                       $     661,948       $     493,299

Note 8. Leases

   The space in which the Foundation Headquarters operates is leased by the Foundation through a multi-year
   lease until April 30, 2008. The total amount of funding commitment is detailed in Table 1.

   ADF also enters into year-to-year leases in the countries with established Resident Representative
   offices.




                                                      34

                                           TABLE 1 – ADF Headquarters’

                                       Space Lease – Total Future Payment Due


                             Fiscal                       Dates                        Amount
                              Year
                            Year 1       October 1, 2004 – September 30,               $376,626
                                         2005
                            Year 2       October 1, 2005 – September 30,               $384,159
                                         2006
                            Year 3       October 1, 2006 – September 30,               $391,842
                                         2007
                            Year 4       October 1, 2007 – April 30, 2008              $232,874

                             TOTAL                                                   $1,385,501

Note 9. Explanation of Differences Between the Statement of Budgetary Resources and the
       Budget of the United States Government.

   The 2006 Budget of the United States Government, with the Actual Column completed for fiscal year 2004,
   has not yet been published as of the date of these financial statements. The Budget is currently expected to
   be published and delivered to the Congress in February 2005. The 2005 Budget of the United States
   Government, with the Actual Column completed for fiscal year 2003, has been reconciled.




                                                    35

                                                                                         Appendix I




 Management
 Comments


November 15, 2004
Mr. Bruce N. Crandlemire
Assistant Inspector General for Audit
Office of the Inspector General, U.S.A.I.D.
1300 Pennsylvania Avenue
Washington, D.C. 20523-8100

Re: Audit Report of the 2004 Financial Statement

Dear Mr. Crandlemire:

We have received the audit report supplied by Leonard G. Birnbaum and Company, including the
opinion on the African Development Foundation’s (ADF) fiscal years 2003 and 2004 comparative
financial statements, internal controls status, and compliance with applicable laws and regulations.
We are pleased to note that all five comparative financial statements (Balance Sheet, Statement of
Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources, and
Statement of Financing) have continued to receive unqualified opinions. Thank you and your team
as well as Birnbaum and Company for working closely with us during the audit process.

During the course of the audit, you identified and reported an instance of weakness in the internal
controls over financial reporting and three related instances of non-compliance with selected
provisions of applicable laws and regulations. In general, we concur with your findings and
recommendations. As you have identified, the material weakness in internal controls relates to the
inadequacy of the financial management systems. You commented on this weakness in the FY
2003 report as well. In the beginning of FY 2004, ADF entered into an interagency agreement
with US Department of Interior, National Business Center, to provide full support utilizing their
federalized Financial Management System. While our goal was to complete the implementation in
time to prepare FY 2004 from the Financial Management System, this did not happen. The
conversion of complex grant data was more complicated than originally estimated, and this caused
delays in the successful implementation of the system in FY 2004. We remain fully committed to
completing the implementation, and our new target is the end of the second quarter of FY 2005.
Therefore, by March 31, 2005, all weaknesses identified in the FY 2003 and FY 2004 audit
reports will be corrected. The effectiveness and success of ADF’s quality improvement program is
evidenced by the continued unqualified opinions received on ADF’s financial statements and the



                                                      36

timely resolution all reported weaknesses.


We at the African Development Foundation recognize the importance of accountability and public
disclosure and our goal is to achieve excellence in our financial management systems. We are
committed to resolving the issues identified in your report and have dedicated the staff and
resources to ensure our systems are in full compliance. We look forward to working with you and
your staff on the 2005 audit. Any questions may be addressed to Marti Edmondson, Chief
Financial Officer at ADF or to me.

Sincerely,

/s/
Nathaniel Fields
President
1400 Eye Street, N.W. � Tenth Floor � Washington, D.C. 20005 � (202) 673-3916 � fax:
(202) 673-3810 � email: info@adf.gov




                                             37

                                                                                         Appendix II
                      AFRICAN DEVELOPMENT FOUNDATION
                        Fiscal Year Ended September 30, 2004

                                Status of Prior Year Audit Finding



FY 2003 Audit Findings

1.	 The United States Standard General Ledger has not been implemented at the
    transaction level - Because of inadequacies in the system used by the General Services
    Administration to process ADF's Transactions, significant elements of the financial statements
    including, but not limited to, grant advances, prepayments franchise fund, accounts payable,
    undelivered orders, unexpended appropriations, and expenses; were developed from sources
    other than general ledger. The inadequacy of the financial and accounting system resulted from
    failures to comply with:

    The Budget and Accounting Procedures Act of 1950 (Sec. 113), which requires an accounting
    system that provides full disclosure of the results of financial operations, adequate financial
    information needed in the management of operations and the formulation and execution of the
    budget, and effective control over income, expenditures, funds, property, and other assets.

    OMB Circular A-127, Financial Management Systems, which requires ADF to establish and
    maintain an accounting system that provides for (i) complete disclosure of the financial results of
    the activities of the agency, (ii) adequate financial information for agency

    JFMIP's Federal Financial Management System Requirements state that the core financial
    management systems must support the partnership between program and financial managers, and
    assure the integrity of decision-making information including the ability to collect accurate, timely,
    complete, reliable, and consistent information. JFMIP also requires that the core financial
    system be able to provide financial information to support internal and external reporting
    requirements, including as necessary the requirements for financial statements. OMB guidance
    states that one indicator of compliance with this standard is that the ADF's core financial system,
    supported by other systems containing the detailed data summarized in the core financial system,
    be the source of information for the preparation of the annual financial statements. However, the
    ADF's core financial system is not the sole source of information used in the preparation of the
    annual financial statements.



                                                        38

                                          Current Status

      During FY2004, ADF switched its accounting service provider from GSA to Department of
Interior’s National Business Center. This conversion has not yet been fully implemented as of
September 30, 2004. Because of inadequacies of entering all transactions in the financial
management system used by the NBC to process ADF’s transactions, significant elements of the
2004 financial statements including, but not limited to, grant advances, prepayments, franchise fund,
accounts payable, undelivered orders, unexpended appropriations, and expenses; were developed
from sources other than the general ledger management and for formulation and execution of the
budget, and (iii) effective control over revenue, expenditures, funds, property, and other assets.

     �




                                                39

